NATIONAL ENDOWMENT FOR THE HUMANITIES

       OFFICE OF INSPECTOR GENERAL




             S E M I A NNUAL
                 R EPORT
             TO C ONGRESS

              October 1, 2002 to March 31, 2003

                                                           REPORT NO. 28

         “Democracy demands wisdom and vision in its citizens”
       National Foundation on the Arts and Humanities Act of 1965
                        THE OFFICE OF INSPECTOR GENERAL

                                       serves American taxpayers
                                 by investigating reports of waste, fraud,
                              mismanagement, abuse, integrity violations or
                                unethical conduct involving federal funds.



                                   To report any suspected activity
                         involving NEH programs, operations, or employees

                                          Call the OIG Hotline

                                             (202) 606-8423



                                            Mailing Address

                           Office of Inspector General-Hotline
                         National Endowment for the Humanities
                                1100 Pennsylvania Ave. N.W., Room 419
                                       Washington, DC 20506


                                         Fax:   (202) 606-8329


                                 Electronic Mail Hotline: oig@neh.gov




Government employees are protected from reprisal

Caller can remain anonymous

Information is confidential



This report is also available on the NEH/OIG Website at http://www.neh.gov/whoweare/oig.html
                        NATIONAL ENDOWMENT FOR THE HUMANITIES


                              Phone (202) 606-8350   Fax (202) 606-8329       Email: oig@neh.gov

                                                     WASHINGTON, D.C. 20506



OFFICE OF INSPECTOR GENERAL



                                                April 30, 2003

  Honorable Bruce Cole
  Chairman
  National Endowment for the Humanities
  Washington, D.C. 20506

  Dear Chairman Cole:

  I am pleased to provide you with the Office of Inspector General’s Semiannual Report to Congress
  for the first half of fiscal year 2003. The report is submitted in accordance with the Inspector Gen-
  eral Act of 1978, as amended. Section 5 of the Act requires that you submit this report, with your
  Report of Final Action, to the appropriate committee or subcommittee of the Congress within 30
  days of its receipt. The report provides a summary of the activities of the OIG during the six- month
  period ended March 31, 2003.

  During this period, we completed one internal review, three grantee reviews, and two quality con-
  trol reviews of independent public accounting firms. Reports were issued on these reviews. An
  additional six reviews are in various stages of completion. In the investigations program, we re-
  ceived several “Hotline” contacts. However, our inquiries into these matters did not lead to the
  opening of any new investigations.

  I appreciate your support and look forward to working with you and all agency staff to help ensure
  that NEH delivers grant awards in an economical, effective and efficient manner.

                                              Sincerely,




                                             Sheldon L. Bernstein
                                             Inspector General
                                                    TABLE OF CONTENTS



LETTER TO THE CHAIRMAN

INTRODUCTION .....................................................................................................................   1

AUDIT AND REVIEW ACTIVITIES............................................................................................              2

INVESTIGATIVE ACTIVITIES ………………………………………………………………………….. ..                                                                           7

OTHER ACTIVITIES ................................................................................................................    9

TABLE I - REPORTING REQUIREMENTS……………………………………………………………….                                                                            11

TABLE II - INSPECTOR GENERAL-ISSUED REPORTS ............................................................                             12
WITH QUESTIONED COSTS

TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH .................................................                                  12
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

GLOSSARY OF AUDIT TERMINOLOGY ..................................................................................                     13
                                             INTRODUCTION



                      THE NATIONAL ENDOWMENT FOR THE HUMANITIES

In order to promote progress and scholarship in the           The Act that established the National Endowment for the
humanities and the arts in the United States, Congress        Humanities says "The term 'humanities' includes, but is
enacted the National Foundation on the Arts and the           not limited to, the study of the following: language, both
Humanities Act of 1965. This Act established the National     modern and classical; linguistics; literature; history;
Endowment for the Humanities as an independent grant-         jurisprudence; philosophy; archaeology; comparative
making agency of the federal government to support            religion; ethics; the history, criticism, and theory of the arts;
research, education, and public programs in the               those aspects of social sciences which have humanistic
humanities. Grants are made through four divisions -          content and employ humanistic methods; and the study
Research Programs, Education Programs, Preservation           and application of the humanities to the human
and Access, and Public Programs -- and two offices --         environment with particular attention to reflecting our
Challenge Grants and Federal-State Partnership.               diverse heritage, traditions, and history and to the
                                                              relevance of the humanities to the current conditions of
                                                              national life."




                                   THE OFFICE OF INSPECTOR GENERAL

 The NEH Office of Inspector General was established on           •   reports directly to Congress.
 April 9, 1989, in accordance with the Inspector General
 Act Amendment of 1988, (Public Law 100-504). In this             The Act states that the Office of Inspector General is
 legislation, Congress established Offices of Inspector           responsible for (1) conducting audits and investigations;
 General in several departments and in thirty-three               (2) reviewing legislation; (3) recommending policies to
 agencies, including the NEH. The NEH Inspector                   promote efficiency and effectiveness; and (4) preventing
 General (IG) is appointed by the Chairman. The                   and detecting fraud, waste, and abuse in the operations
 independence of the IG is an important aspect of the Act.        of the agency. The Inspector General is also responsible
 For example, the IG:                                             for keeping the Chairman and Congress fully and
                                                                  currently informed of problems and deficiencies in the
 •    cannot be prevented from initiating, carrying out, or       programs and operations.
      completing an audit or investigation, or from issuing
      any subpoena;                                               The OIG staff consists of the Inspector General, a Deputy
                                                                  Inspector General, two auditors, and a secretary. The
 •    has access to all records of the agency;                    OIG and the Office of the General Counsel (OGC) have a
                                                                  Memorandum of Understanding detailing the procedures
 •    reports directly to the Chairman, and can only be           for the OIG to be provided with OGC legal services.
      removed by the Chairman, who must promptly advise           Investigations are handled by the Inspector General, an
      Congress of the reasons for the removal; and                auditor and as required by the agency’s Assistant
                                                                  General Counsel.




NEH OIG Semiannual Report                                     1                                                     March 2003
                                    AUDIT AND REVIEW ACTIVITIES

  This office is responsible for external and internal audits.   reviews/evaluations of the NEH administrative,
  External auditing includes grants, pre-award accounting        programmatic, and financial operations.
  system surveys, review of OMB Circular A-133 reports,          During this reporting period, the OIG received and
  and on-site quality control reviews of CPA work papers.        processed 83 OMB Circular A-133 audit reports, (see
  Internal efforts consist of audits, inspections, and           Single Audit Act Reviews).




                                               LIST OF REPORTS ISSUED

  The following is a list of reports issued by the OIG during    Costs" (including a separate category for the “Dollar
  this reporting period. The Act requires us to report on the    Value of Unsupported Costs”). None are reported during
  "Dollar Value of Recommendations that Funds Be Put to          this period.
  Better Use" and the "Total Dollar Value of Questioned




                                                                      Report Number             Date Issued

INTERNAL AUDITS/REVIEWS

Fiscal Year Ended September 30, 2002 Consolidated Review of           OIG-03-01 (IR)            01/08/03
 the Federal Managers’ Integrity Act (FMFIA)


EXTERNAL AUDITS/REVIEWS/SURVEYS

Review of Mississippi Action for Community Education (MACE)           OIG-03-01 (ER)            01/07/03
 Audited Financial Statements for the Fiscal Year Ended
 December 31, 2001

Review of the Books and Records of James Agee Film Project/           OIG-03-02 (ER)            01/08/03
 Ross Spears

Telephone Survey -Social Media Productions                            OIG-03-01 (TS)            03/31/03


QUALITY CONTROL REVIEWS

Quality Control Review of the Financial Statement and                 OIG-03-101 (QCR)          03/19/03
 Compliance Audit of New York Foundation for the Arts
 Fiscal Year Ended June 30, 2001

Quality Control Review of the Financial Statement and                 OIG-03-102 (QCR)          03/31/03
 Compliance Audit of Virginia Foundation for the Humanities
 and the Public Policy for the Year Ended October 31, 2000l




  NEH OIG Semiannual Report                                      2                                               March 2003
                                SUMMARY OF REPORTS ISSUED


                                             INTERNAL REVIEWS

                            Fiscal Year Ended September 30, 2002 Consolidated Review of
                                      the Federal Managers’ Integrity Act (FMFIA)
                                           January 8, 2003, OIG-03-01 (IR)

We performed a limited review of the information submit-    fiscal year ended September 30, 2002. We found that
ted by each office head/division director and the chair-    the agency generally complied with the Act.
man’s letter sent to President Bush. Our review covered


                                        EXTERNAL AUDITS/REVIEWS

                           Review of Mississippi Action for Community Education (MACE)
                      Audited Financial Statements for the Fiscal Year Ended December 31, 2001,
                                           January 7, 2003, OIG-03-01 (ER)

The objectives of our review were to determine if          The former executive director was indicted in January
MACE was viable as a going concern and that it would       2002, however, the organization was not included in
have the ability to manage and account for NEH grant       the indictment. From October 2001, NEH had been
funds. In November 2000, the NEH’s chairman ap-            working with the new executive director to obtain ade-
proved a challenge grant award to MACE, (Application       quate documentation that MACE was a viable organi-
No. CH-20781).                                             zation. The December 31, 2000 audit report disclosed
                                                           internal control weaknesses. Therefore, we informed
The OIG learned shortly thereafter that MACE and the       MACE that we needed additional documentation and
executive director were being investigated by federal      the December 31, 2001 audited financial statements.
law enforcement agencies. Therefore, the NEH OIG           In the latter part of December 2002, we received suffi-
requested that NEH postpone making the award pend-         cient information to opine that NEH could release the
ing the outcome of the investigation.                      funds for the NEH challenge grant.


                    Review of the Books and Records of James Agee Film Project/ Ross Spears
                                         January 8, 2003, OIG-03-02 (ER)

The James Agee Film Project (Project) and the project       survey of the Project’s accounting and management sys-
director Mr. Ross Spears were previously audited by an      tem and opined that the Project could receive a chair-
independent public accountant (IPA). The IPA ques-          man’s grant. However, the OIG stated that before the
tioned costs and working with the OIG, eventually           Project could be allowed to receive a project production
cleared all costs. Therefore, the OIG asked NEH to          grant, we would have to audit/review the final costs of
place the Project and Mr. Spears on the “Problem            the chairman’s grant. Our review revealed that the Pro-
Grantee List—Organizations and Individuals Requiring a      ject accounted for and managed grant funds adequately.
Pre-Award Survey,” maintained by the NEH Office of          We had NEH remove the Project and Mr. Spears from
Grant Management. The OIG performed a telephone             the “Problem Grantee List.”




NEH OIG Semiannual Report                                     3                                                 March 2003
                                    EXTERNAL REVIEWS (continued)

                                  Telephone Survey - Social Media Productions
                                        March 31, 2003, OIG-03-01 (TS)


The objective of this review was to obtain information to   Based on the information obtained, we concluded that
determine the adequacy of the organization’s account-       the accounting system, management controls, and ad-
ing system, management controls, and policies and           ministrative policies and procedures implemented by
procedures designed to administer grant funds. Social       Social Media Productions provide assurance that the
Media Productions was selected for this review be-          organization can adequately manage and account for
cause the organization has received substantial sup-        NEH grant funds. However, we found several condi-
port from NEH and since it had not expended $300,000        tions that should be addressed to ensure compliance
or more of federal funds in a single year, it has not       with federal regulations.
been subject to the audit requirements of OMB Circular
A-133.                                                      Social Media Productions agreed with our recommen-
                                                            dations. The OIG is monitoring the corrective action
                                                            plan.


                                       QUALITY CONTROL REVIEWS
                   Quality Control Review of the Financial Statement and Compliance Audit of
                   New York Foundation for the Arts (NYFA) Fiscal Year Ended June 30, 2001
                                        March 19, 2003, OIG-03-101 (QCR)

The objectives of the QCR were to (1) ensure that the             monitoring. Furthermore, the working papers did
audit was conducted in accordance with Government                 not adequately document the IPA’s efforts to test
Auditing Standards (GAS) and meets single audit re-               NYFA’s compliance with subrecipient monitoring
quirements; (2) identify any follow-up work needed; and           requirements.
(3) identify issues that may require the attention of NEH
management.                                               •       The IPA incorrectly determined that program in-
                                                                  come was not an applicable compliance require-
We found that the audit was generally conducted in                ment. Consequently, the IPA did not test internal
accordance with applicable standards. However, the                controls related to program income or NYFA’s
audit did not, in all respects meet single audit require-         compliance with program income requirements.
ments. Several exceptions were noted:
                                                        We made recommendations to the IPA on how to cor-
•   The working papers did not evidence the independ- rect these exceptions.
    ent public accountant’s (IPA) efforts to understand
    and test internal controls related to subrecipient




NEH OIG Semiannual Report                                     4                                                   March 2003
                              QUALITY CONTROL REVIEWS (continued)
                  Quality Control Review of the Financial Statement and Compliance Audit of
                                    Virginia Foundation for the Humanities
                           and the Public Policy for the Year Ended October 31, 2001
                                      March 31, 2003, OIG-03-102 (QCR)

The objectives of the QCR were to (1) ensure that the            tion reported on both the Federal Cash Transactions
audit was conducted in accordance with Government Au-            Report and the last two Financial Status Reports.
diting Standards (GAS) and meets single audit require-
ments; (2) identify any follow-up work needed; and (3)       • The IPA’s internal control testing did not include the
identify issues that may require the attention of NEH man-       Foundation’s regrant program.
agement.
                                                             • Federal expenditures reported on the Schedule of
We found that the audit was generally conducted in ac-           Expenditures of Federal Awards and the Data Collec-
cordance with applicable standards. However, the audit           tion Form for three NEH programs were overstated.
did not, in all respects meet the single audit requirements.
Several exceptions were noted:                               We made recommendations to the IPA on how to correct
                                                             these exceptions.
• There was no evidence in the working papers that
     testing had been performed on disbursement informa-



                                      SINGLE AUDIT ACT REVIEWS

We receive audit reports on NEH grantee organizations      During the six-month period ended March 31, 2003, we
from other federal agencies (mainly the Department of      reviewed 83 OMB Circular A-133 audit reports. Eight of
Health and Human Services), state and local                the reports contained audit findings. Seven of the
government auditors, and independent public                reports with findings were associated with state
accountants (IPA). These reports are the result of OMB     humanities councils. However, we did not issue any re-
Circular A-133 audits and they cover financial activity,   ports to the Endowment during this period.
compliance with laws and regulations, and grantee
management (internal) controls over federal
expenditures.




  NEH OIG Semiannual Report                                   5                                                March 2003
                                 AUDITS/REVIEWS IN PROGRESS


 Review of the NEH Purchase Card Program                         Accounting System/Internal Control Review of
                                                                 Catticus Corporation
 The General Accounting Office and other federal Inspec-
 tors General have been reporting that weak internal con-        The objective of this review is to determine the adequacy
 trols has created situations where improper purchases           of the grantee’s accounting system, internal controls, and
 can go undetected. The NEH OIG is reviewing the NEH             monitoring procedures related to two subrecipients. In
 controls to determine if improper purchases would be de-        addition, we are reviewing the adequacy of the two subre-
 tected or prevented.                                            cipients’ accounting system and internal controls. The
                                                                 grantee was selected for this review because the grantee
 Review of the NEH Timekeeping Process                           received a substantial award from NEH and was not re-
                                                                 quired to have an OMB Circular A-133 audit.
 The OIG was requested to review the timekeeping proc-
 ess because several NEH offices continually receive             Feasibility of Negotiating an Indirect Cost Rate for the
 Leave Error Reports (LER) from the National Finance             Louisiana Endowment for the Humanities (LEH)
 Center (the processing agency). Our objective is to iden-
 tify the reasons for the LERs and to recommend proce-        The objective of this review is to determine if LEH’s ac-
 dures to assist the timekeepers in avoiding future prob-     counting records are adequate as a basis for negotiating
 lems.                                                        an indirect cost rate. The LEH has received multiple pro-
                                                              ject grants during the past several years. In accordance
 Review of Cost-Sharing Claimed on Final Financial            with NEH policy, the LEH has been charging an adminis-
 Status Reports by State Humanities Councils                  trative fee of 10 percent of modified direct costs to project
                                                              grants. However, NEH policy limits such administrative
 State Humanities Councils have a legal duty to cost-share fees to $5,000 per year for each project grant. State
 an amount equal to the general operating grants awarded council organizations are allowed up to $20,000 in admin-
 by NEH. The OIG has found that independent public ac- istrative fees in any one year. (This is necessary be-
 countants are not adequately testing cost-sharing re-        cause a few state councils may have several projects out-
 cords. Since the cost-sharing requirement is based on a standing in any particular year.)
 provision in the NEH legislation, the amounts reported to
 NEH should be tested. Our review will determine if the       We initiated this review since LEH receives multiple pro-
 underlying records support amounts claimed on final Fi-      ject grants from NEH and a negotiated rate could allow
 nancial Status Reports.                                      LEH to recover more of its actual overhead expenses (in
                                                              excess of the current $20,000 annual limitation). In addi-
 Accounting System/Internal Control Telephone Sur-            tion, LEH may be able to charge general administrative
 vey of NEH Grantee—Ways of Knowing                           costs to project grants from other federal agencies and
                                                              the State of Louisiana.
 The objective of this review is to obtain information to de-
 termine the adequacy of the grantee’s accounting system,
 management controls, and policies and procedures de-
 signed to administer grant funds.




NEH OIG Semiannual Report                                    6                                                    March 2003
                                 INVESTIGATIVE ACTIVITIES

                                                 BACKGROUND

The Inspector General Act provides the authority for       When the OIG receives a complaint or allegation of a
the Office of Inspector General to investigate possible    criminal or administrative violation, we make a
violations of criminal or civil laws, administrative       determination of the appropriate action to take. This
regulations, and agency policies, which relate to the      can be an audit, an investigation, a referral to another
programs and operations of the NEH. The OIG                NEH office or division, or a referral to another federal
Hotline, e-mail address, and regular mail are efficient    agency.
and effective means of receiving allegations or
complaints from employees, grantees, contractors,          As of October 1, 2002, two cases were open. During
and the general public. The OIG has obtained               the six months ended March 31, 2003, we received
assistance from other OIGs, the Federal Bureau of          four Hotline" contacts. We are holding one matter
Investigation, the Postal Inspection Service, and other    open at March 31, 2003.
investigative entities as necessary.


                                          OPEN AT OCTOBER 1, 2002

•   Allegation that a grantee organization was having       •       Allegation that a state humanities council was di-
    financial problems and NEH would not receive a                  recting a subrecipient to involve a church in a pro-
    final product. Our inquiry revealed that the organi-            posed project. The subrecipient thought this was a
    zation was indeed in dire straights; however, there             violation of the church-state doctrine. The NEH
    was no indication that NEH funds were not properly              General Council, with the limited information we had
    spent and accounted for. The grantee has raised                 at the time, did not believe this particular situation
    sufficient funds to have an independent public ac-              violated the Constitution. The OIG has determined
    countant perform an audit. We are continuing to                 from a review of the facts provided that there was
    monitor this matter.                                            not a church-state constitution matter. Therefore,
                                                                    we closed our file.


                                         CONTACTS DURING THIS PERIOD

We received one internal contact during this period and it determined that no investigation was warranted.
was referred to the Office of Human Resources. Two con- One contact was referred to the Office of General
tacts concerning grantees were received and our review     Council.




NEH OIG Semiannual Report                                       7                                                     March 2003
                            MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

                               No new cases were referred for criminal prosecution.


                                    HOTLINE AND PREVENTION ACTIVITIES
We maintain a local Hotline phone number, agency           informing them of violations that should be reported to
e-mail address, and an Internet address to provide         the OIG. We also send e-mail messages several
additional confidentiality for those persons bringing      times during the year to inform NEH staff about the
matters to the attention of the OIG. We continue to        OIG operations. Posters advising staff to contact the
issue agency-wide e-mail messages to NEH staff             OIG are displayed throughout the agency building.


                                              ANONYMOUS E-MAIL

We have on the NEH Intranet and the Internet a             waste, fraud, abuse, and mismanagement in an
system for staff, grantees, contractors, etc., to report   anonymous manner.


                                   SUMMARY OF INVESTIGATION ACTIVITY



                                      Open at beginning of period              2

                                   Matters brought to the OIG during           4
                                          the reporting period


                                      Total investigative contacts             6

                                       Closed or referred during               5
                                         the reporting period


                                         Open at end of period                 1




NEH OIG Semiannual Report                                     8                                                  March 2003
                                            OTHER ACTIVITIES


                                     INDIRECT COST RATE NEGOTIATIONS/REVIEWS


Grantees are entitled to recover total project costs, both      are usually grouped into a common pool(s) and distrib-
direct and indirect. Indirect costs are those costs of an       uted to those organizational or institutional activities that
organization or institution that are not readily identifiable   benefit from them through the expedient of an indirect
with a particular project or activity but are nevertheless      cost rate(s).
necessary to the general operation of the organization or
institution and the conduct of the activities it performs.      Cognizant federal agencies approve rates after reviewing
                                                                cost allocation plans submitted by grantees. The ap-
The cost of office supplies, general telephone, postage,        proved rates are generally recognized by other federal
accounting, and administrative salaries are types of ex-        agencies.
penses usually considered as indirect costs. In theory, all
such costs might be charged directly; practical difficulties, During this period, we negotiated an indirect cost rate
however, preclude such an approach. Therefore, they           with one grantee.



    Grantee                                        Report Number                       Date Issued

    Boston Athenaeum                               OIG-03-01 (IDC)                     12/06/02



                                 PARTICIPATION ON THE EXECUTIVE COUNCIL ON
                                          INTEGRITY AND EFFICIENCY

The Executive Council on Integrity and Efficiency (ECIE)        to combat fraud and waste in federal programs and
was established by the President in 1992 to coordinate          operations. OIG staff regularly attend ECIE meetings and
and implement government-wide activities                        provide information to the ECIE.


                                    REGULATORY AND LEGISLATIVE REVIEWS


The Inspector General Act of 1978, as amended, requires         of agency programs and operations, and (2) contains
the Office of Inspector General to review proposed legis-       adequate internal controls to prevent and detect fraud
lation and regulations. The reviews are made to assess          and abuse. During this period we provided the ECIE with
whether the proposed legislation or regulation (1) im-          comments on various matters affecting the OIG
pacts on the economy and efficiency                             community.



                                         OIG INTERNET AND INTRANET

The OIG has listed several semiannual reports on the            To enhance the NEH staff's recognition of the OIG
Internet. The reports are accessible through the NEH            mission and responsibilities, we provide links to several
homepage and the Inspectors General homepage                    other federal agencies such as the Office of Management
(http://www.neh.gov/whoweare/OIG.html).                         and Budget, the General Accounting Office, the Office of
                                                                Government Ethics, and the IGNET.




NEH OIG Semiannual Report                                       9                                                     March 2003
                                         WORKING WITH THE AGENCY


In this period, OIG staff attended and engaged in vari-   monthly NEH Employee Association meetings. The
ous NEH meetings - panel meetings (where grant appli-     staff were also involved in the review of NEH adminis-
cations are reviewed by outside consultants), pre-        trative directives.
council meetings (where program staff discuss panel
review results with the chairman and his immediate        The Office of Inspector General contributes to the dis-
staff), and the National Council meeting. In addition,    cussions; however, the office does not participate in
the IG and Deputy IG attended the chairman's monthly      policy making.
policy group meetings. An OIG staff person attended



                                              STRATEGIC PLAN

                              The OIG is currently revising our strategic plan.




NEH OIG Semiannual Report                                  10                                                   March 2003
                                                     TABLE I

                                   REPORTING REQUIREMENTS


The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting requirements for
semiannual reports. The requirements are listed and cross-referenced to the applicable pages in this report.


IG Act Reference            Reporting Requirements                                       Page

Section 4(a)(2)             Regulatory and Legislative Reviews………………………………               *

Section 5(a)(1)             Significant Problems, Abuses, and Deficiencies…………………        *

Section 5(a)(2)             Recommendations for Corrective Action ………………………… *

Section 5(a)(3)             Prior Significant Recommendations Unimplemented…………… *

Section 5(a)(4)             Matters Referred to Prosecutive Authorities……………………… 8

Section 5(a)(5)             Instances Where Information Was Refused or Not Provided…… *

Section 5(a)(6)             List of Audit Reports Issued………………………………………… 2

Section 5(a)(7)             Summary of Significant Reports…………………………………… 3-5

Section 5(a)(8)             Audit Reports - Questioned Costs….……………………………… *

Section 5(a)(9)             Audit Report - Funds To Be Put to Better Use.…….…………….. *

Section 5(a)(10)            Prior Audit Reports Unresolved…………………………………..… *

Section 5(a)(11)            Significant Revised Management Decisions………………………. *

Section 5(a)(12)            Significant Management Decisions with which OIG Disagreed…..*



* None this period




NEH OIG Semiannual Report                                  11                                                  March 2003
                                                    TABLE II
                                       INSPECTOR GENERAL-ISSUED REPORTS
                                             WITH QUESTIONED COSTS


                                                                                 Number Questioned Unsupported
                                                                                Of Reports Cost       Cost


A. For which no management decision has been made by the                             -0 -    $ -0 -       $ -0 -
   commencement of the reporting period.


B. Which were issued during the reporting period.                                    -0 -   $ -0 -        $ -0 -


                                  Subtotals (A+B)                                    -0 -   $ -0 -        $ - 0-


C. For which a management decision was made during
   the reporting period.

        i.    Dollar value of disallowed costs.                                      -0 -   $ -0 -     $ - 0-


        ii.   Dollar value of costs not disallowed (grantee subsequently             -0 -   $ -0 -     $ - 0-
              supported all costs).


D. For which no management decision has been made by the end                         -0 -   $ -0 -     $ - 0-
   of the reporting period.


E. Reports for which no management decision was made within                          -0 -   $ -0 -        $     -0 -
   six months of issuance.



                                                 TABLE III
                                     INSPECTOR GENERAL-ISSUED REPORTS
                            WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                                              Number          Dollar
                                                                                             Of Reports       Value

A. For which no management decision has been made by the commencement                           -0 -          $-0 -
   of the reporting period.

B. Which were issued during the reporting period.                                               - 0-          $-0 -

C. For which a management decision was made during the reporting period.                        - 0-          $ -0 -

        i. Dollar value of recommendations that were agreed to by management.                   - 0-          $-0 -

        ii. Dollar value of recommendations that were not agreed to by management.              -0 -          $-0 -

D. For which no management decision was made by the end of the reporting period.                -0 -          $-0 -




NEH OIG Semiannual Report                                    12                                               March 2003
                            GLOSSARY OF AUDIT TERMINOLOGY


Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision of a law,
regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure of
funds; because such cost is not supported by adequate documentation; or because the expenditure of funds for the
intended purpose is unnecessary or unreasonable.

Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the time of the
audit.

Disallowed Cost - A questioned cost that management, in a management decision, has sustained or agreed should
not be charged to the government.

Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be used more
efficiently by reducing outlays, de-obligating program or operational funds, avoiding unnecessary expenditures, or
taking other efficiency measures.

Management Decision - The evaluation by management of the audit findings and recommendations and the
issuance of a final decision by management concerning its response to such findings and recommendations.

Final Action - The completion of all management actions, as described in a management decision, with respect to
audit findings and recommendations. When management concludes no action is necessary, final action occurs when
a management decision is made.

Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-504).




NEH OIG Semiannual Report                                   13                                               March 2003
